Akin
Gump
Strauss Hauer & Feld
LLP

Z

0

PRATIK A. SHAH
+1 202.887.4210/fax: +1 202.887.4288

3

pshah@akingump.com

1,125/laki
October 30, 2019
VIA HAND DELIVERY
The Hon. Scott S. Harris
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re:

Kalev Mutond, et al. v. Darryl Lewis, No. 19-185

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 9, 2019,
and placed on this Court's docket on August 12, 2019. The response was originally
due for filing on October 15, 2019. By order of September 30, 2019, that date was
extended to November 14, 2019. Respondent respectfully requests an additional
extension of time for filing the response, to and including December 9, 2019.
The additional time is necessary due to the heavy press of matters before this
Court and other courts. We have contacted counsel for Petitioners, who consents to
this request.
Sincerely yours,
a -AAAPratik A. Shah

cc:

John Patrick Elwood, Counsel of Record for Petitioners (via overnight
delivery)

Robert S. Strauss Tower 2001 K Street, N.W. Washington, D.C. 20006-10037 202.887.4000 I fax 202.887.4288 akingump.com

